Office of Audits and Evaluations
Report No. EVAL-13-001


Acquisition, Development, and
Construction Loan Concentration Study




                                   October 2012
                                      Executive Summary

                                      Acquisition, Development and Construction
                                      Loan Concentration Study
                                                                                     Report No. EVAL-13-001
                                                                                                October 2012

Why We Did The Evaluation
This report presents the results of our study of FDIC-supervised institutions with significant acquisition,
development, and construction (ADC) loan concentrations that did not fail during the recent economic
downturn. ADC loans are considered the riskiest type of commercial real estate (CRE) lending. During
the recent financial crisis, FDIC analysis shows that failed institutions had concentrations of ADC loans
to total assets that were roughly three times the average of concentrations of non-failed institutions.

Our objective was to study the characteristics and supervisory approaches for FDIC-supervised
institutions that had significant ADC loan concentrations in December 2007 and were not considered to
be problem banks as of April 2011. In initiating this study, we were interested in identifying factors that
may have helped banks mitigate the risks historically associated with ADC concentrations during periods
of economic stress.

To evaluate the characteristics of the banks included in our study, we reviewed key financial ratios for the
FDIC-supervised institutions meeting the criteria of our study – generally in satisfactory condition and
having concentrations that regulators considered to be significant – and the 214 FDIC-supervised
institutions that failed between January 2007 and April 2011. Doing so allowed us to compare and
contrast the two groups. We also contacted bank officials for a sample of the institutions and discussed
their strategies for managing ADC concentrations and factors, which in their view, allowed their
institutions to remain fundamentally sound or to successfully overcome the risk and losses associated
with the concentrations. To evaluate the FDIC’s supervisory approach, we reviewed the supervisory
documents, including any enforcement actions taken, for a sample of banks that we refer to as “turn-
around” banks. That is, banks with significant ADC concentrations in December 2007, some level of
supervisory concern between 2007 and 2010, and improved supervisory ratings as of April 2011.


Background
History has demonstrated that CRE markets can experience fairly rapid changes. Specifically, according
to the FDIC’s History of the Eighties–Lessons for the Future, investment in CRE has traditionally been
quite risky. Real estate markets as a whole are traditionally cyclical, so that even the most well-conceived
and soundly underwritten CRE project can become troubled during the periodic overbuilding cycles that
characterize these markets. ADC lending is generally considered to be the riskiest class of CRE due to
long development times and because ADC lending can include properties that are built before having firm
commitments from buyers or lessees. In addition, by the time the construction phase is completed,
market demand may have fallen – placing downward pressure on sales prices or rents – making this type
of loan more volatile.

Between 2001 and 2008, ADC lending grew rapidly at FDIC-insured banks. To address the growth in
CRE concentrations, the banking regulatory agencies issued joint guidance in December 2006, which was
intended to reinforce existing regulations and guidelines for real estate lending and safety and soundness.
However, by the summer of 2007, a series of complex and interrelated shocks began to unfold, sparking
sharp declines in real estate values in many regions of the country and setting off a wave of bank failures
beginning in 2008.



                                                        i
                                  To view the full report, go to www.fdicig.gov
                                     Acquisition, Development and Construction
  Executive Summary
                                     Loan Concentration Study
                                                                                     Report No. EVAL-13-001
                                                                                                October 2012


Evaluation Results
We identified 436 institutions that met our criteria of having an ADC concentration of 100 percent or
greater as of December 2007 and were in satisfactory condition as of April 2011. We focused attention
on a sample of 18 of those institutions that had ADC concentrations of 300 percent or more. We took this
approach because, in our view, the experience of these 18 institutions was unique and allowed us to
readily compare their practices to those institutions with ADC concentrations that failed. Notably, we did
not identify a significant number of banks with high concentrations in 2007 that were in satisfactory
condition in 2011. We believe this is reflective of how difficult it is for institutions with exceedingly high
ADC concentrations to mitigate the concentration risk during an economic downturn. Perhaps not
surprisingly, bankers we interviewed characterized the Board’s and management’s risk appetite to be
conservative or moderate. These same bankers implemented many of the key elements of the risk
management framework that regulators have said are needed to manage ADC concentrations.
Additionally, bankers we spoke to indicated that they limited speculative lending, loan participations, and
out-of-area lending. Finally, a number of bankers were quick to point out that their market areas were
less impacted by the economic decline. As a result of these factors, banks in our study did not experience
significant losses from their ADC portfolio and managed to maintain stable capital positions even with a
steep and prolonged economic decline.

We found that the supervisory approach and level of supervisory attention for the 23 turn-around banks
we sampled were generally consistent with the FDIC’s supervisory practices and policies and similar to
the approach for banks that ultimately failed. That is, as economic conditions declined and banks’
financial condition began to weaken, the FDIC’s supervisory attention increased and supervisory actions
were pursued. However, we observed that the approach yielded a better outcome – stable or improved
examination ratings – because turn-around banks were responsive to supervisory actions and guidance
and maintained or secured capital needed to absorb losses in response to regulatory demands.


Observations and Matters for Consideration
Prior to the recent financial crisis, competition among financial institutions for growth, profitability, and
community influence often resulted in the compromise of sound credit principles and acquisition of
unsound loans. Ultimately, that type of compromise resulted in a spate of bank failures not seen since the
1980s—a period that, in broad terms, was not that long ago. Much was written following the banking
crisis of the 1980s and early 1990s, and there were ample discussions of lessons learned. In addition, far-
reaching legislative and regulatory actions were taken and extensive guidance was issued by regulators on
key risks, including repeated warnings and references to best practices related to ADC lending because it
is a highly specialized field with inherent risks that must be managed and controlled. Nevertheless, unlike
the circumstances at the banks we studied, Boards and management at too many other institutions pursued
profits through growth and higher-earning, risky assets, in an era of easy credit, while lacking robust risk
management practices—a story that appears very similar to the one told just over 20 years ago.

We found that some institutions with ADC concentrations were able to weather the recent financial crisis
without experiencing a corresponding decline in their overall financial condition. The factors that
contributed to their survival validate the point that regulators have emphasized and reiterated for years – a
well-informed and active Board, strong management, sound credit administration and underwriting
practices, and adequate capital are important in managing ADC concentrations in a safe and sound
                                                       ii
                                  To view the full report, go to www.fdicig.gov
                                     Acquisition, Development and Construction
  Executive Summary
                                     Loan Concentration Study
                                                                                    Report No. EVAL-13-001
                                                                                               October 2012

manner. In addition, the banks in our study did not rely on brokered deposits to fund growth, and
geographic location factored into the degree of ADC loan losses. Ultimately, the strategic decisions and
disciplined, values-based practices and actions taken by the Boards and management helped to mitigate
and control the institutions’ overall ADC loan risk exposure and allowed them to react to a changing
economic environment. Unlike many failed banks that saw their capital evaporate rapidly because of the
losses associated with their ADC portfolios, the banks in our study experienced comparatively fewer
losses and were able to maintain stable capital positions.

Further, we determined that the FDIC’s supervisory approach and level of supervisory attention for the
turn-around banks were generally consistent with the FDIC’s supervisory practices and policies and
similar to the approach for failed banks. In that regard, the following areas in which the FDIC has
implemented revised supervisory policies and procedures are worth highlighting.

       While the supervisory approach we observed for turn-around banks proved effective, similar to
        observations made in our material loss reviews (MLRs), we believe that earlier emphasis on risk
        management practices would have been beneficial. To that end, the Corporation completed a
        training initiative in 2010 for its entire supervisory workforce that focused on placing greater
        emphasis on risk management practices for institutions with elevated risk profiles. The training
        addressed the importance of considering management practices as well as current financial
        performance or trends when assigning ratings, consistent with existing examination guidance.
        This approach encourages bank management to continuously implement effective risk
        management practices and examiners to promptly address control weaknesses, regardless of how
        well a bank is performing financially.

       Management’s responsiveness to supervisory concerns was a key differentiating factor between
        banks that failed and the turn-around banks we reviewed. Generally, our MLRs have shown that
        examiners identified significant risks but did not take timely and effective action to address those
        risks until the bank had started to experience significant financial deterioration in the loan or
        investment portfolios. In response to those findings, the FDIC has conducted training and issued
        guidance aimed at timely communication of risks to financial institutions, prompt supervisory and
        enforcement actions, and examiner follow-up. The Corporation should remain vigilant in
        ensuring that its processes and examiners sufficiently promote prompt and effective responses to
        examination findings and supervisory actions, including timely and progressive enforcement of
        situations involving banks that are not responsive to examination findings, repeat criticisms, or
        violations.

Finally, the FDIC has to date, and must continue to make certain, that lessons learned associated with
ADC concentrations become ingrained in day-to-day supervisory activities and that placing greater
emphasis on risk management practices for institutions with elevated risk profiles is sustained regardless
of the health of the economy or banking industry or the political appetite for financial regulation. We
trust that the analysis and conclusions of our study will benefit the Corporation and assist in
management’s continuous efforts to have an efficient and effective supervisory program that protects
depositors and the Deposit Insurance Fund.




                                                      iii
                                 To view the full report, go to www.fdicig.gov
                                   Acquisition, Development and Construction
  Executive Summary
                                   Loan Concentration Study
                                                                                Report No. EVAL-13-001
                                                                                           October 2012


Corporation Comments
We provided a draft of this report to FDIC management on August 9, 2012. The FDIC was not required
to provide a written response because the report contained no recommendations, and management opted
to only provide informal comments regarding the technical accuracy of certain report content. We made
changes to the report, where appropriate, to address those comments. FDIC management did express
general agreement with the evaluation results at the exit conference for this assignment.




                                                     iv
                                To view the full report, go to www.fdicig.gov
Contents

EVALUATION OBJECTIVE AND APPROACH                                              2

BACKGROUND                                                                     3

COMMON CHARACTERISTICS OF BANKS IN THIS STUDY                                  7

    Implemented More Conservative Growth Strategies                            7

    Relied on Core Deposits and Limited Net Non-Core Funding Dependence        9

    Implemented Prudent Risk Management Practices and Limited Speculative      11
    Lending, Loan Participations, and Out-of-Area Lending

    Generally Experienced a Lower Level of Non-Current Loans and Losses        14
    Associated with ADC Loans

    Maintained Stable Capital Levels and Had Access to Additional Capital If   16
    Needed

    Geographic Location Played a Significant Role in Financial Performance     17

SUPERVISORY APPROACH FOR TURN-AROUND BANKS                                     18

    Examination Findings Were Similar to Those for Failed Banks                18

    Enforcement Actions Addressing Asset Quality, Capital, and Management      19
    Were Imposed as Banks’ Financial Condition Deteriorated – Generally
    Consistent with the Approach for Failed Banks

    The FDIC Has Taken Steps to Address Specific MLR Trends and Issues         22

    Banking Officials Had Positive Views of the Examination Process, but       22
    Concerns Exist Regarding Examiner Review of CRE Lending and Regulatory
    Burden

OBSERVATIONS AND MATTERS FOR CONSIDERATION                                     24

CORPORATION RESPONSE                                                           25

APPENDICES

    1. Objective, Scope, and Methodology                                       26

    2. Glossary                                                                29

    3. Acronyms                                                                33
Contents

TABLES

    1. Location of Bankers Interviewed for Our Study                            17

    2. Stratification of FDIC-Supervised Banks by ADC Loan Concentration        26


FIGURES

    1. ADC Loans at FDIC-Supervised Institutions, 1991 to 2010                  4

    2. Key Elements Needed in a Risk Management Framework for                   5
       Concentrations

    3. ADC Loan Growth, Bank Failures, and DIF Losses by Region                 6

    4. ADC Loans as a Percentage of Total Loans, 2005 to 2010                   8

    5. Loan Portfolio Composition and Growth for the Sample of 18 Banks, 2005   9
       to 2010

    6. Loan Portfolio Composition and Growth for 436 Banks, 2005 to 2010        9

    7. Net Non-Core Funding Dependence, 2005 to 2010                            10

    8. Non-Current ADC Loans to Total ADC Loans, 2005 to 2010                   15

    9. Net ADC Loan Losses to Average Total ADC Loans, 2005 to 2010             16

    10. Tier 1 Leverage Capital Ratios, 2005 to 2010                            17

    11. Location of the 18 Banks in Our Sample                                  18

    12. Trend Analysis of Enforcement Actions, 2005 to 2010                     20

    13. Selected Categories of Enforcement Actions, 2005 to 2010                21
Federal Deposit Insurance Corporation                                                  Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                     Office of Inspector General

DATE:                                     October 31, 2012

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Risk Management Supervision


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Deputy Inspector General for Audits and Evaluations

SUBJECT:                                  Acquisition, Development, and Construction Loan
                                          Concentration Study (Report No. EVAL-13-001)


This report presents the results of our study of FDIC-supervised institutions1 with significant
acquisition, development, and construction2 loan (ADC) concentrations that did not fail during the
recent economic downturn. ADC loans are considered the riskiest type of commercial real estate
(CRE) lending. During the recent financial crisis, FDIC analysis shows that failed institutions had
concentrations of ADC loans to total assets that were roughly three times the average of
concentrations of non-failed institutions.

In presenting these results, we are mindful that FDIC-supervised institutions and the FDIC itself
have already learned key lessons associated with ADC loan concentrations. Banks are modifying
borrowers’ loan terms so that they can continue to make payments; increasing bank capital and
reserves as protection against future losses; and, in some cases, reducing lending. The FDIC and
the other federal banking regulators have responded by issuing interagency statements and
guidance on managing the risks of ADC concentrations, encouraging banks to continue lending to
creditworthy borrowers, clarifying to banks how examiners will review loans secured by real
estate, and explaining how banks can work with troubled borrowers. While there has been some
improvement in the market, problems in this type of lending are expected to continue and could
present further challenges to the market in coming years.

With that in mind, it was our intention in this report to shift the focus away from banks that failed
to those that managed to see their way through the economic downturn and maintain safe and
sound operations. Likewise, the intent of the study was to focus on the FDIC’s supervisory
approach to ADC concentrations in banks that remained open rather than evaluate what examiners
did to minimize loss to the Deposit Insurance Fund (DIF) as a result of an institution that had
failed. To provide a context for our results, the report first presents background information
addressing the extent to which FDIC-insured banks grew their ADC loan portfolios during the
financial crisis and how that growth contributed to failures and then summarizes key supervisory
guidance and tenets of sound risk management associated with ADC concentrations. The next two
sections of our report discuss (1) the common characteristics of the banks we studied and how they

1
  Throughout this report, we use the terms “FDIC-supervised institution” and “bank” interchangeably unless noted
otherwise.
2
  Underlined terms are defined in the Glossary, Appendix 2.
contrast with those that failed and (2) how the supervisory approach and level of supervisory
attention for the banks we sampled compared to those banks that ultimately failed. Finally, we
provide our concluding observations and matters for management’s consideration.


EVALUATION OBJECTIVE AND APPROACH
Our objective was to study the characteristics and supervisory approaches for FDIC-supervised
institutions that had significant ADC loan concentrations in December 2007 and were not
considered to be problem banks as of April 2011. In initiating this study, we were interested in
identifying factors that may have helped banks mitigate the risks historically associated with ADC
concentrations during periods of economic stress.

We identified 436 institutions meeting our criteria – that is, institutions with ADC concentrations
100 percent or greater as of December 2007 and considered to be in a satisfactory condition as of
April 2011.3 We used 100 percent as a benchmark because it is the threshold that regulators use to
identify institutions that are potentially exposed to significant CRE concentration risk, which is
described in guidance entitled, Concentrations in Commercial Real Estate Lending, Sound Risk
Management Practices (Joint Guidance).4

To study the characteristics of these banks, we performed level and trend analysis of key financial
ratios for the 436 FDIC-supervised institutions we identified and the 214 FDIC-supervised
institutions that failed between January 2007 and April 2011.5 Doing so allowed us to compare
and contrast the two groups. Of the 436 institutions, we focused attention on a sample of 18
institutions that had concentrations of 300 percent or greater and were in satisfactory condition to
determine whether these institutions had any unique characteristics that we could learn from. We
also reviewed an FDIC-generated loan underwriting survey to understand the risk profile of sound
banks with ADC concentrations, which we compared with the FDIC-supervised banks that failed.

To study the FDIC’s supervisory approach, we looked at banks with ADC concentrations between
100 and 300 percent as of December 2007 that were in a less-than-satisfactory condition between
2007 and 2010 and subsequently received a higher composite rating as of April 2011. We
identified 71 institutions meeting these criteria and selected a non-statistical sample of 23 banks,
which we refer to as “turn-around” banks in this report. 6 For each of the 23 turn-around banks, we
3
  For purposes of this report, banks with 1 or 2 CAMELS composite ratings were considered to be in satisfactory
condition and banks with 3, 4, or 5 ratings were considered to be in less than satisfactory condition. Financial
institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS) to evaluate a
bank’s performance in six components represented by the CAMELS acronym – Capital adequacy, Asset quality,
Management practices, Earnings performance, Liquidity position, and Sensitivity to market risk – and determine an
overall composite rating.
4
  The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors of the
Federal Reserve System, and the FDIC in December 2006.
5
  Level analysis is the process of reviewing financial statement ratios and volumes as of a specific date. Level analysis
allows for a comparison of performance. Trend analysis is the process of assessing the general direction or prevailing
tendency (i.e., increasing, decreasing, or stable) of operating ratios or volumes over several periods (i.e., generally over
a 5-year period) using the level of each period.
6
  A non-statistical sample is judgmental and cannot be projected to the intended population by standard statistical
methods. See Appendix 1 for a detailed description of the sampling methodology used during the audit.


                                                            2
obtained and reviewed key supervisory documents for our scope period, January 2007 through
June 2011.

Lastly, we contacted bank officials in 38 institutions to discuss their strategies for managing ADC
concentrations and factors, which in the officials’ view, allowed their institutions to remain
fundamentally sound or to successfully overcome the risk and losses associated with the
concentrations. We also solicited their views on the FDIC’s supervision with respect to ADC
concentrations. Among the banks we contacted were officials from (1) all 18 banks in our sample
of institutions that had concentrations of 300 percent or greater and were in satisfactory condition
and (2) about half of our sample of turn-around banks. Thirty-six bank officials agreed to talk with
us. The results of our discussions are reflected throughout the report. However, to avoid
overstating the precision of the results, we use the terms “few,” “some,” and “most.”7 We did not
interview officials in banks with high ADC concentrations that were considered to be in a less-
than-satisfactory condition as of April 2011 because those banks were not a focus of this study.
Therefore, the experiences and views of those officials may differ from those of the officials we
interviewed and are not reflected in this report except where we reference results from a
Government Accountability Office (GAO) study on CRE.

Our basic understanding of the risks associated with ADC concentrations is based on our review of
regulatory guidance and ADC-related reports, including reports from GAO and the FDIC. We also
considered material loss review (MLR) reports8 issued by our office and other studies written about
bank failures during the recent financial crisis to identify issues associated with ADC
concentrations discussed in those reports.

We performed our evaluation work from July 2011 through February 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
and Evaluation. Appendix 1 includes additional details related to our objective, scope, and
methodology. Appendix 2 provides a glossary of certain terms used in this report, and Appendix 3
provides a list of acronyms also used in this report.


BACKGROUND

According to the FDIC’s History of the Eighties–Lessons for the Future, investment in CRE has
traditionally been quite risky. Real estate markets as a whole are traditionally cyclical, so that even
the most well-conceived and soundly underwritten CRE project can become troubled during the
periodic overbuilding cycles that characterize these markets. ADC lending is generally considered
to be the riskiest class of CRE due to long development times and because ADC lending can
include properties that are built before having firm commitments from buyers or lessees. In
addition, by the time the construction phase is completed, market demand may have fallen –

7
  Appendix 1 provides information about how we use these terms.
8
  As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, as amended by the Dodd-Frank Wall Street
Reform and Consumer Protection Act (Dodd-Frank Act), when the DIF incurs a material loss, the IG of the appropriate
federal banking agency is required to make a written report to that agency. The report is to consist of a review of the
agency’s supervision of the institution and a determination as to why the institution’s problems resulted in a material
loss to the DIF and recommendations to prevent future losses.


                                                         3
placing downward pressure on sales prices or rents – making this type of loan more volatile. In the
years after the banking and thrift crisis of the 1980s and early 1990s, banking and economic
conditions were favorable and relatively few banks failed. During this period, banks had record
earnings but were also building up significant credit risk exposures.

Notably, between 2001 and 2008, ADC lending grew rapidly at FDIC-insured banks and, as later
illustrated, shrank just as quickly as the housing bubble burst. A 2007 FDIC article on managing
CRE concentrations (including ADC loans) noted that demand for CRE lending – a traditional core
business for many community banks – had been strong, and a number of banks had CRE
concentrations that were high by historical standards and were rising.9 Growth in ADC lending
was especially pronounced as depicted in Figure 1.

Figure 1: ADC Loans at FDIC-Supervised Institutions, 1991 to 2010




Source: FDIC’s Division of Insurance and Research (DIR).

According to FDIC data, ADC lending grew 75 percent from the first quarter of 2005 to the first
quarter of 2008, and ADC loan volume for all FDIC-insured banks peaked in March 2008. The
FDIC’s analysis of the data noted that ADC loan growth was more prevalent in (1) de novo banks;
(2) small community banks; (3) certain regions of the country, such as the Southeast, Northwest,
and Mountain states; and (4) states affected by the housing boom, such as Georgia, Washington,
Arizona, and North Carolina.

To address the growth in CRE concentrations, the agencies issued the Joint Guidance in
December 2006, which was intended to reinforce existing regulations and guidelines for real estate
lending and safety and soundness. The Joint Guidance identifies institutions that are potentially
exposed to significant CRE concentration risk as those that have experienced rapid growth in CRE
lending, have notable exposures to a specific type of CRE, or are approaching or exceed the
following supervisory criteria:

         Total loans reported for construction, land development, and other land represent 100
          percent or more of the institution’s total capital; or

9
    FDIC Supervisory Insights, Managing Commercial Real Estate Concentrations, Winter 2007.


                                                        4
        Total CRE loans that represent 300 percent or more of the institution’s total capital, and the
         outstanding balance of the institution’s CRE loan portfolio has increased by 50 percent or
         more during the prior 36 months.

The Joint Guidance states that these criteria are not limits and are viewed neither negatively nor as
a “safe harbor.” According to the Joint Guidance, the ability of institutions with significant
concentrations to withstand difficult market conditions will depend heavily on the adequacy of
their risk management practices and capital levels. The guidance recognizes that the sophistication
of an institution’s risk management process will depend on the size of the CRE portfolio and the
level and nature of its CRE concentration risk. Figure 2 summarizes the key elements needed for
managing concentration risk as outlined in the Joint Guidance.

Figure 2: Key Elements Needed in a Risk Management Framework for Concentrations

 Board and Management Oversight. If an institution has significant CRE concentration risk, its strategic
 plan should address the rationale for its CRE levels in relation to its overall growth objectives, financial targets,
 and capital. The Board of Directors (Board) should establish policy guidelines and approve an overall CRE
 lending strategy regarding the level and nature of CRE exposures acceptable to the institution.

 Portfolio Management. Management should regularly evaluate the degree of correlation between related
 real estate sectors and establish internal lending guidelines and concentration limits that control the institution’s
 overall risk exposure. Management should develop a contingency plan to reduce or mitigate concentrations in
 the event of adverse CRE market conditions.

 Management Information Systems. A management information system should be provided to
 management with sufficient information to identify, measure, monitor, and manage CRE concentration risk.

 Market Analysis. Market analysis should provide the institution’s management and Board with information
 to assess whether its CRE lending strategy and policies continue to be appropriate in light of changes in CRE
 market conditions. An institution should perform periodic market analysis for the various property types and
 geographic markets represented in its portfolio.

 Credit Underwriting Standards. When an institution has a CRE concentration, the establishment of sound
 lending policies becomes even more critical. Credit analysis should reflect both the borrower’s overall
 creditworthiness and project-specific considerations, as appropriate.

 Portfolio Stress Testing and Sensitivity Analysis. An institution with CRE concentrations should
 perform portfolio-level stress tests or sensitivity analysis to quantify the impact of changing economic
 conditions on asset quality, earnings, and capital.

 Credit Risk Review Function. A strong credit risk review function is critical for an institution’s self-
 assessment of emerging risks. An effective, accurate, and timely risk-rating system provides a foundation for
 the institution’s credit risk review function to assess credit quality and, ultimately, to identify problem loans.

Source: Joint Guidance.

History has demonstrated that CRE markets can experience fairly rapid changes and, by the
summer of 2007, a series of complex and interrelated shocks, rooted in poor underwriting and poor
administration of residential subprime mortgages and flaws in securitization practices and capital
markets, began to unfold, triggering a liquidity crisis and recession. The financial crisis sparked
sharp declines in real estate values in many regions of the country and set off a wave of bank


                                                            5
failures beginning in 2008. As explained later in this report, geographic location was a factor in
the degree of losses associated with CRE and ADC lending that figured prominently in many of the
bank failures. Figure 3 illustrates that point and shows ADC loan growth, bank failure activity,
and related DIF losses during the period covered by our review.

Figure 3: ADC Loan Growth, Bank Failures, and DIF Losses by Region




                                                     Legend
 San Francisco Region                                Atlanta Region
   113.8% Growth                                       95.3% Growth
   84 Bank Failures                                    120 Bank Failures
   $30.8 Billion in DIF Losses                         $24.1 Billion in DIF Losses

 Chicago Region                                       New York Region
   66% Growth                                          73.8% Growth
   65 Bank Failures                                    21 Bank Failures
   $10.4 Billion in DIF Losses                         $7.7 Billion in DIF Losses

 Dallas Region                                        Kansas City Region
   95.3% Growth                                        79.5% Growth
   25 Bank Failures                                    36 Bank Failures
   $6.1 Billion in DIF Losses                          $2.5 Billion in DIF Losses

Source: Office of Inspector General (OIG) analysis of data from the FDIC’s Loss History Reports and Quarterly Banking
        Profile.
Note:   Bank failure and loss data are from January 2007 to March 2011.




                                                        6
In response to the challenging economic conditions that began to materialize in 2007, the FDIC
issued guidance in 2008 to re-emphasize the importance of strong capital and allowance for loan
and lease loss (ALLL) levels and robust credit risk management practices for institutions with
concentrated CRE exposures consistent with the Joint Guidance.



COMMON CHARACTERISTICS OF BANKS IN THIS STUDY

This section of the report discusses what we learned about the characteristics of the banks with
ADC concentrations that did not fail. As noted earlier, we focused attention on a sample of 18
banks that had ADC concentrations of 300 percent or greater and were in satisfactory condition.
We selected this sample, because, in our view, the experience of these 18 institutions was unique
and allowed us to readily compare their practices to those institutions with ADC concentrations
that failed. Notably, we did not identify a significant number of banks with high concentrations in
2007 that were in satisfactory condition in 2011. We believe this is reflective of how difficult it is
for institutions with exceedingly high ADC concentrations to mitigate the concentration risk during
an economic downturn. Perhaps not surprisingly, bankers we interviewed characterized the
Board’s and management’s risk appetite to be conservative or moderate. These same bankers
implemented many of the key elements of the risk management framework that regulators have
said are needed to manage ADC concentrations. Additionally, a number of bankers we
interviewed were quick to point out that their market areas were less impacted by the economic
decline. As a result of these factors, banks in our study did not experience significant losses from
their ADC portfolio and managed to maintain stable capital positions even though the economy, as
a whole, experienced a steep and prolonged economic decline.

IMPLEMENTED MORE CONSERVATIVE GROWTH STRATEGIES

According to the Joint Guidance, an institution’s Board has ultimate responsibility for the level of
risk assumed by the institution. In general, the banks that failed pursued aggressive growth
strategies centered in ADC lending, which left those institutions more vulnerable to the economic
downturn. While the 436 banks in our study experienced some increasing ADC concentration
levels from 2005 through 2007, most of the bankers we spoke with characterized their institution’s
risk appetite to be conservative or moderate, and most pursued a conservative or moderate growth
strategy. Bank officials from one bank explained that the bank was aggressive early but “got
scared” early. The officials explained that competitive market factors influenced their decision to
pursue an aggressive growth strategy in 2005 and 2006, but, overall, they tried to maintain a
conservative culture and emphasize sound underwriting standards.

Figure 4 presents trend information reflecting the percentage of ADC loans to total loans for failed
banks and the banks in our sample. The analysis reveals that, for the 436 banks in our study, ADC
loans represented a smaller percentage of the total loan portfolio than failed banks, which reflects
the Boards’ lower risk appetite and ensuing strategic decisions.




                                                 7
Figure 4: ADC Loans as a Percentage of Total Loans, 2005 to 2010




Source: OIG analysis of selected Uniform Bank Performance Report (UBPR) data.
Note:   Data points presented are averages for the failed and sampled banks.

Further, the 18 banks in our sample were able to significantly diversify their loan portfolio in
comparison to the other banks in our study. The declining trend line for the failed banks was due
to the recognition of ADC loan losses within the loan portfolio – not as a result of the banks’
efforts to diversify into other loan products. Bankers we interviewed stated that once the economy
declined, they mitigated the risk associated with their ADC loan concentrations by intentionally
reducing their ADC loan portfolio, further diversifying their loan portfolio, and implementing pre-
existing (well-developed) loan workout policies to meet the bank’s increased operational demands.
Most of the bank officials we spoke with from the 18 banks stated that they made conscious
decisions to diversify their loan portfolio by shifting their loan mix away from ADC loans and to
shrink the volume of ADC loans in response to the economic decline, which our level and trend
analysis supports. A few officials acknowledged that they did not make a conscious decision to
diversify or shrink their ADC loan portfolios; rather, the shift away from ADC lending happened
because there was less demand for ADC loans.

Most officials we interviewed from the 18 banks also stated that the banks’ Boards took an active
role in monitoring the ADC portfolio and were familiar with the local real estate market.
More than half of the bank officials from those banks stated that they relied on formal market
analysis processes, including obtaining housing data and trends from third-party subscription
services. The other officials we interviewed relied on less-formal processes but said they kept
abreast of market conditions by maintaining strong relationships with local realtors and borrowers
and being knowledgeable about their respective communities. Additionally, most of the officials
from the 18 banks we interviewed stated that they proactively “ramped up” loan work-out staffing
to address problem loans and did so early in the cycle. Figures 5 and 6 present loan composition
and growth information for the 18 and 436 banks, respectively.



                                                      8
Figure 5: Loan Portfolio Composition and Growth for the Sample
          of 18 Banks, 2005 to 2010
                                                                        $5,000                                                                                          $309

                                                                        $4,500                                                            $262           $290
      Gross Loans and Leases (Millions)




                                                                                                                                                                      $684
                                                                        $4,000
                                                                                                                         $245            $602          $622
                                                                        $3,500
                                                                                                                                                                      $1,063
                                                                                                           $193                          $716
                                                                        $3,000                                           $564                          $926

                                                                        $2,500             $156           $429           $417
                                                                        $2,000                            $359
                                                                                           $358                                        $1,489          $1,330
                                                                                                                         $822                                         $1,917
                                                                        $1,500             $320           $768

                                                                        $1,000             $627
                                                                                                                        $1,325         $1,122          $1,103
                                                                              $500                       $1,083
                                                                                           $663                                                                       $764

                                                                                $0
                                                                                       Dec-05           Dec-06         Dec-07         Dec-08          Dec-09         Dec-10

                                                                                                                            Period End
                                                                              ADC     Other CRE     1-4 Family Residential         Commerical & Industrial        All Other Loans

Source: OIG analysis of selected Call Report data.

Figure 6: Loan Portfolio Composition and Growth for 436
          Banks, 2005 to 2010
                                                                              $200

                                                                              $180
                                                                                                                                      $18.1           $17.3         $22.1
                                          Gross Loans and Leases (Billions)




                                                                              $160
                                                                                                                       $18.2          $27.0           $24.5         $25.6
                                                                              $140
                                                                                                         $14.4         $24.1
                                                                              $120                       $20.6                        $41.7           $39.9         $41.2
                                                                                        $13.3
                                                                              $100                                     $33.5
                                                                                        $17.5
                                                                                                         $30.8
                                                                              $80       $27.9
                                                                                                                                      $60.7           $66.8
                                                                              $60                                      $50.7                                        $70.6
                                                                                                         $45.9
                                                                              $40       $38.6

                                                                              $20                        $27.3         $32.5          $31.4           $26.5
                                                                                        $19.4                                                                       $21.2
                                                                               $0
                                                                                       Dec-05           Dec-06        Dec-07         Dec-08          Dec-09        Dec-10

                                                                                                                          Period Ended
                                                                                     ADC    Other CRE     1-4 Family Residential   Commerical & Industrial    All Other Loans

Source: OIG analysis of selected Call Report data.

RELIED ON CORE DEPOSITS AND LIMITED NET NON-CORE FUNDING DEPENDENCE

In response to our question about funding sources, most bankers we interviewed stated they
primarily relied on core deposits to fund operations and growth. Core deposits have historically
been categorized as stable, less-costly deposits obtained from local customers that maintain a
relationship with the institution, while brokered deposits 10are considered potentially volatile,
interest-rate-sensitive deposits from customers in search of yield. The FDIC’s research indicates
that core deposits may reduce a bank’s probability of failure because they typically provide a bank
10
     Brokered deposits are a type of wholesale funding.


                                                                                                                                                 9
with a stable and relatively cost-effective source of funds and are a direct indication of a bank’s
valuable customer relationships and franchise value. An FDIC study of core and brokered deposits
noted that while examiners do not necessarily view the presence of any certain source of funding as
inherently bad, the FDIC had observed that a number of bank failures occurred where
concentrations in CRE and ADC lending were funded by large amounts of brokered deposits.11
We also made this observation in our MLRs.

Figure 7 compares the net non-core dependence ratio for banks in our study and FDIC-supervised
banks that failed. As illustrated, failed banks, in general, were more reliant on non-core funding
sources to support their ongoing operations than were the banks in our study. The net non-core
funding dependence ratio measures the extent to which a bank is using non-core funds to invest in
long-term assets, which can create a liquidity concern because non-core funds can be volatile and
long-term assets may not be readily converted to cash. A high positive ratio may indicate a bank’s
possible vulnerability to adverse events in the non-core funding environment (i.e., when the cost of
these funds becomes prohibitive).

Figure 7: Net Non-Core Funding Dependence, 2005 to 2010




Source: OIG analysis of UBPR data.
Note:   The net non-core funding dependence ratio is a bank’s non-core liabilities,
        less short-term investments, divided by long-term assets. Data points
        presented are averages for failed and sampled banks.

Further, because the failed banks entered the crisis with high levels of non-core funding, those
banks had limited funding options once they became troubled or undercapitalized.12 Conversely,

11
   Pursuant to section 1506 of the Dodd-Frank Act, the FDIC completed the Study on Core Deposits and Brokered
Deposits (July 8, 2011).
12
   Section 29 of the FDI Act and Part 337.6 of the FDIC Rules and Regulations address restrictions placed on financial
institutions that are deemed to be less than Well Capitalized for Prompt Corrective Action purposes, including the use
of brokered deposits and interest-rate restrictions.


                                                          10
banks in our study were able to utilize additional non-core funding sources to facilitate a shift or
growth away from ADC lending and into other more profitable operations.

IMPLEMENTED PRUDENT RISK MANAGEMENT PRACTICES AND LIMITED SPECULATIVE LENDING,
LOAN PARTICIPATIONS, AND OUT-OF-AREA LENDING

In a 2010 follow-up audit report, we stated that concentrations in CRE and ADC loans, coupled
with inadequate risk management practices have played a role in practically every failure that was
the subject of an MLR.13 In addition, the inappropriate use of interest reserves by bank
management was noted in many of the MLRs we conducted. In contrast to our MLR findings,
most officials we interviewed for this study characterized their bank’s underwriting practices to be
conservative or moderate. Further, our review of FDIC-generated underwriting survey results
generally support the notion that the banks included in our study had stronger loan underwriting
practices than failed banks and, consequently, a lower risk profile in general.

Long-standing supervisory guidance states that management’s ability to identify, measure,
monitor, and control portfolio risk through effective underwriting policies, systems, and internal
controls is crucial to a sound ADC lending program.14 The Joint Guidance reiterated that
concentrations in CRE lending, coupled with weak loan underwriting and depressed CRE markets,
contributed to significant credit losses in the past. According to the Joint Guidance:

        strong risk management practices are an important element of a sound CRE lending
         program, particularly when an institution has a concentration in CRE loans;

        financial institutions with CRE concentrations should ensure that risk management
         practices appropriate to the size of the portfolio, as well as the level and nature of
         concentrations, and the associated risk to the institution are implemented; and

        financial institutions should establish a risk management framework that effectively
         identifies, monitors, and controls CRE concentration risk.

In addition, FIL-22-2008, Managing Commercial Real Estate Concentrations in a Challenging
Environment, issued March 17, 2008, provides key risk management processes for institutions with
CRE concentrations, including maintaining prudent, time-tested lending policies with a strong
credit review and risk rating system to identify deteriorating credit trends early and maintaining
updated financial and analytical information for borrowers. For example, institutions should
emphasize global cash flow analysis of obligors, which involves analyzing borrowers’ complete
financial resources and obligations. The guidance further states that inappropriately adding extra
interest reserves on loans where the underlying real estate project is not performing as expected
can erode collateral protection and mask loans that would otherwise be reported as delinquent.



13
    FDIC OIG report entitled, Follow-up Audit of FDIC Supervision Program Enhancements, dated
December 23, 2010, (Report No. MLR 11-010).
14
   Internal and Regulatory Guidelines for Managing Risks Associated with Acquisition, Development, and
Construction Lending, Financial Institution Letter (FIL)-110-98, dated October 8, 1998.


                                                       11
The following paragraphs highlight the lending and underwriting and credit administration
practices of banks in our study, as described by the bank officials we interviewed:

Limited or No Speculative ADC Lending. Speculative lending involves providing financing to
developers for constructing homes that are not pre-sold, adding an additional dimension of risk.
Monitoring a speculative single-family housing development can be especially challenging.
Institutions must have a clear understanding of the demand for housing within geographic areas,
submarkets, or specific projects, as well as price points within markets or projects. Most of the
bankers we interviewed characterized their practices as conservative. Generally, bank officials
said that speculative loans were originated only on a limited basis before the economic crisis, if at
all. Further, in cases where banks did fund speculative ADC loans, bank officials indicated that
loans were made to existing borrowers and were tied to strong customer relationships.

Limited or No ADC Loan Participations. Loan participations are a means by which banks
diversify their assets and generate lending income. According to the FDIC’s Risk Management
Manual of Examination Policies (Examination Manual), a bank purchasing a participation loan is
expected to perform the same degree of independent credit analysis on the loan as if the bank were
the originator of the loans. To determine if a participation loan meets its credit standards, a
participating bank must obtain all relevant credit information and details on collateral values, lien
status, loan agreements, and participation agreements before a commitment is made to purchase.
Some of our MLRs found that institutions that purchased out-of-area participations relied on the
underwriting of the institution that originated the loans rather than making independent
assessments of the loans prior to purchase, which was among the factors contributing to some
failures. Most officials we interviewed said that their banks did not purchase loan participations or
had bought participations only on a limited basis.

Limited or No Out-of-Area Lending. Out-of-area lending can diversify an institution’s portfolio
and reduce geographic concentration risk. However, before engaging in out-of-area lending,
institutions should ensure the infrastructure is in place (i.e., staff, systems, and processes) to
monitor and administer these loans. A 2010 FDIC analysis of loan underwriting data indicated that
some banks increased their overall risk profiles because of this type of lending.15 According to the
FDIC’s analysis, the majority (89 percent) of out-of-area lending activity was reported in
commercial/CRE (including ADC) portfolios. Further, the FDIC found that institutions that
exhibited frequent or common out-of-area lending activity tended to have higher levels of credit
risk and more loose overall underwriting standards, particularly in ADC portfolios.

Most of the bankers we interviewed described their practices as conservative – either not
originating out-of-area loans or originating these loans on a limited basis. For example, a few bank
officials stated that they made an out-of-area loan to existing customers or in familiar areas. A few
officials stated that they had reduced any out-of-area loan origination volume during the financial
crisis.

Routine Global Cash Flow Analysis. Global cash flow analysis involves analyzing borrowers’
complete financial resources and obligations. Most bankers we interviewed described their
practices as conservative, stating global cash flow analysis was performed. A few officials
15
     Insights From the FDIC’s Credit and Consumer Products/Services Survey, FDIC Supervisory Insights, Winter 2010.


                                                         12
acknowledged that they had not performed or emphasized global cash flow analysis until the
economic crisis began to unfold.

Limited Use of Interest Reserve Accounts. Interest reserve accounts essentially capitalize
contractual interest payments into a construction loan’s principal balance, similar to the funding of
other development costs that are supported by construction loan advances. The use of interest
reserves in conjunction with the funding of initial development and construction costs is an
acceptable lending practice subject to prudent underwriting standards, appropriate repayment
terms, and the timely completion of the project in accordance with the original loan agreement.
However, the use of, or over-reliance on, interest reserves beyond the timely completion of
construction may be inappropriate. For example, if a project experiences delays or has diminished
feasibility resulting from a weak local real estate market, interest reserves can inappropriately
disguise a problem credit relationship. Most bankers we interviewed described their practices as
conservative, stating that they did not originate loans with an interest reserve funding component –
allowing loan proceeds to fund the borrower’s interest payments.

Analysis of Loan Underwriting Survey Results. In addition to the differences highlighted
above, our analysis of the FDIC’s loan underwriting survey results showed that the failed banks
generally took on a greater level of risk from 2004 to 2006. FDIC-supervised banks that failed also
increased their risk profile more severely, as the economic cycle peaked and then began to decline
in 2007, and then again in 2009. In particular, from 2004 to 2009, examiner survey results indicate
that the failed banks initially had higher levels of potential risk and/or significantly increased their
risk profiles above that of sound institutions, in the following areas:

      Loan growth,
      Current underwriting practices,
      Loan portfolio credit risk,
      Loan participations purchased,
      Contributions to concentrations of credit,
      Out-of-area lending,
      Loan administration risk,
      Failure to require material principal reduction before renewal,
      Lending policies differing from actual practices,
      Funding speculative residential ADC projects,
      Funding speculative commercial real estate development projects,
      Funding ADC loans without consideration of other sources of repayment (other than the
       project being funded),
      Funding ADC loans without consideration of the quality of other sources of repayment
       (when alternative sources of repayment are required),
      Failure to use realistic appraised values,
      Funding, or deferring, interest payments on ADC loans, and
      Funding 100 percent of the cost of ADC loans (land and construction) with no
       borrower/developer cash equity.

Survey results also indicated that in 2004, both sound and failed banks typically adjusted their loan
pricing based on perceived differences in loan quality and/or risk; and to a certain extent, both



                                                  13
populations required a material principal reduction before renewing term loans. However, as the
economy began to deteriorate in 2007, and through 2009, the failed banks moved away from
accurately pricing their loans based on risk and increasingly failed to require a material principal
reduction before renewal.

Based on the results of the FDIC’s revised examiner survey, we also noted that from October 2009
to December 2010, the failed banks continued to exhibit higher risk traits over those of sound
institutions. However, the potential risk in certain areas, such as ADC loan growth and out-of-area
lending, appeared to decline and/or stabilize, as banks slowed or halted originating new ADC
loans. The revised examiner survey data also indicated that failed banks had higher-risk profiles
than sound institutions in the following areas:

      Granting credit before obtaining a documented review or a qualified appraisal of the
       property;
      Liberal use of interest reserves or deferred interest payments, potentially masking rising
       delinquency levels;
      Weak to poor loan workout infrastructure; and
      Weak to poor credit review and grading system.

Also of note, the survey data indicated that the failed banks were typically subject to the following
conditions:

      Elevated levels of concentrations in CRE loans – particularly in ADC loans,
      Weak to poor management of the CRE loan portfolio consistent with the 2006 CRE
       Guidance,
      Weak to poor management of CRE concentration risk,
      Very weak to distressed CRE markets,
      Declining to critically declining real estate market values, and
      An excess to a saturated supply of unsold property in the bank’s real estate markets.

GENERALLY EXPERIENCED A LOWER LEVEL OF NON-CURRENT LOANS AND LOSSES
ASSOCIATED WITH ADC LOANS

In our 2010 follow-up audit report, we noted that aggressive growth centered in ADC
concentrations coupled with weak risk management practices was a leading cause of losses, which
led to the rapid erosion of capital during the economic downturn. The banks in our study generally
experienced a lower level of non-performing loans and losses. For example, noncurrent ADC
loans – loans that were 90 days or more past due or in a nonaccrual status – were significantly
higher for banks that failed than the banks in our study as shown in Figure 8.




                                                 14
Figure 8: Non-Current ADC Loans to Total ADC Loans, 2005 to 2010




Source: OIG analysis of selected UBPR data.
Note:   Data points presented are averages for failed and sampled banks.

An ADC lending analysis performed by the FDIC concluded that the exposure to potentially
volatile real estate development markets contributed to asset quality deterioration at many
institutions and, ultimately, to their failure. FDIC-generated data showed the following:

       For institutions that failed, non-performing ADC loans represented 8 percent of all non-
        performing assets in the first quarter of 2000 and rose to a high of 54 percent in the third
        quarter of 2008.

       For survivor institutions, non-performing ADC loans also rose but not as much – from
        almost 4 percent in the first quarter of 2000 to a decade high of 23 percent in the third
        quarter of 2009.

       The average non-current ratio for all loans reached a decade high of 17.61 percent at failed
        institutions at year-end 2010, compared with 3.02 percent among survivor institutions. The
        FDIC attributed the trend, in part, to the sharp rise in non-performing ADC loans.

We also looked at the ratio of net ADC loan losses to average total ADC loans, which shows the
level of losses experienced within the ADC portfolio. In general, lower ratios are better because
they indicate that losses for a particular loan type are a small proportion of average loans in that
type. According to FDIC guidance, a high level of losses within a particular loan type may
indicate underwriting, collections, or asset quality problems for that type of lending. Further,
increasing trends in any type of lending indicate developing problems. Figure 9 shows that banks
in our study had lower and steadier trends than banks that failed with regard to losses associated
with ADC portfolios.



                                                       15
Figure 9: Net ADC Loan Losses to Average Total ADC Loans, 2005 to 2010




Source: OIG analysis of selected UBPR data.
Note:   Data points presented are averages for failed and sampled banks.

In our view, the differences in the level of losses and non-performing ADC loans between the
groups can be attributed to the factors we have discussed in this report.

MAINTAINED STABLE CAPITAL LEVELS AND HAD ACCESS TO ADDITIONAL CAPITAL IF NEEDED

Capital serves as a buffer between operating losses and insolvency. The more capital a bank has
the more losses it can withstand. In other words, a bank’s capital determines the amount of time it
has to correct internal weaknesses or outlast negative external influences. Generally, a bank is
expected to maintain capital commensurate with the nature and extent of risks to the institution and
the ability of management to identify, monitor, and control risks.

Part 325 of the FDIC’s Rules and Regulations establishes the criteria and standards the FDIC uses
in calculating the minimum leverage capital (Tier 1 (Core) Capital) requirement and determining
capital adequacy. Risk-based capital is another capital measure that is more explicitly and
systematically sensitive to the risk profile of individual banks. A bank’s risk-based capital ratio is
calculated by dividing its qualifying total capital base by its risk-weighted assets. Under the risk-
based framework, a bank’s qualifying total capital basis consists of Tier 1 Capital and
supplementary capital elements, known as Tier 2 Capital.

As illustrated above in Figure 9, losses associated with ADC loans were not as significant for the
436 banks in our study as the banks that failed. In the failed banks, the losses quickly eroded
capital. In contrast, we found that capital positions of the 436 banks, including the 18 banks in our
sample, were generally stable between 2005 and 2010 as illustrated in Figure 10. Further, most
bankers commented that their bank’s access to capital was not restricted—if needed, their



                                                       16
shareholders or outside investors were willing to invest additional capital. A few bank officials
explained that their bank’s strong core deposit base helped to attract capital.

Figure 10: Tier 1 Leverage Capital Ratios, 2005 to 2010




                          Well capitalized




Source: OIG analysis of selected UBPR data.
Note:   Data points are median ratios for failed and sampled banks. Section 38 of the
        FDI Act, known as Prompt Corrective Action (PCA), establishes a framework for taking prompt supervisory
        action against banks not adequately capitalized. Generally, a bank is considered Well Capitalized
        for PCA purposes if it maintains a Tier 1 Leverage Capital ratio of at least 5 percent.


GEOGRAPHIC LOCATION PLAYED A SIGNIFICANT ROLE IN FINANCIAL PERFORMANCE

Most officials we interviewed emphasized that the bank’s geographic location played a significant
role in the bank’s financial performance during the financial crisis. That is, the economic decline
was not as steep in their marketplace as it was in some other areas of the country. Table 1
summarizes where these banks were located by FDIC region. As illustrated in Figure 3 earlier in
the report, most failures occurred in the Atlanta and San Francisco regions, and only 7 of the 36
banks in our interview pool were located in those areas.
                                                                          Table 1: Location of Bankers
As discussed earlier in this report, although every region of             Interviewed for Our Study
the country was impacted by the financial crisis, the                          Region             Number of Banks
                                                                           Atlanta                       4
economic fallout was not uniform across the country. Bank
                                                                           Chicago                       2
failures were more concentrated in areas that experienced
                                                                           Dallas                       20
greater economic distress – including Georgia, Florida,
                                                                           Kansas City                   5
Illinois, and California (as illustrated in Figure 3). Figure
                                                                           New York                      2
11 presents the geographic location of the 18 banks in our                 San Francisco                3
sample.                                                                    Total                        36
                                                                          Source: OIG analysis.




                                                       17
We found only one bank that was located in one of the states with the greatest number of failures –
Georgia. Most of the 18 banks were in markets where few bank failures occurred.

Figure 11: Location of the 18 Banks in Our Sample




Source: OIG analysis of the FDIC’s Loss History Report.
Note:   Bank failures and losses were from January 2007 through March 2011.




SUPERVISORY APPROACH FOR TURN-AROUND BANKS
This section of the report discusses the supervisory approach for the sampled turn-around banks.
We also highlight broader supervisory actions taken in response to MLR trends and other issues
stemming from the recent financial crisis. We found that the supervisory approach and level of
supervisory attention for the 23 turn-around banks we sampled were generally consistent with the
FDIC’s supervisory practices and policies and similar to the approach for banks that ultimately
failed. That is, as economic conditions declined and banks’ financial condition began to weaken,
the FDIC’s supervisory attention increased and supervisory actions were pursued. We observed
that the supervisory approach yielded a better outcome – stable or improved examination ratings –
because of managements’ responsiveness in addressing supervisory concerns.

EXAMINATION FINDINGS WERE SIMILAR TO THOSE FOR FAILED BANKS

The FDIC’s supervision program primarily relies on annual onsite examinations and its offsite
review program to monitor the condition of its banks. The onsite examinations provide
information necessary to understand the nature, relative seriousness, and ultimate cause of a bank’s
problems, and thus assist in providing a factual foundation on which to base corrective measures,


                                                      18
recommendations, and instructions.16 The FDIC’s offsite review program is designed to identify
emerging supervisory concerns and potential problems so that supervisory strategies can be
adjusted appropriately. For instance, offsite reviews may trigger targeted visitations.

To understand the supervisory history of each of the 23 turn-around banks, we reviewed
examination reports for these banks from 2007 through 2011.17 Although examiners identified
some weaknesses, they generally considered the turn-around banks’ risk management practices to
be adequate before the financial crisis. ADC concentrations were generally noted to be a risk in
the 2008 and 2009 examinations, as losses within the portfolio materialized. In addition, we noted
that examiners generally determined that the methodology and funding for the ALLL was
inadequate during the same period. As discussed in the next section of this report, examiners
downgraded composite and component ratings and pursued enforcement actions against the banks
to address supervisory concerns. Further, targeted visitations were performed as warranted.

As discussed in our 2010 follow-up audit report related to supervisory program enhancements, the
CAMELS rating for failed financial institutions placed greater emphasis on a bank’s financial
condition at the time of the examination and levels of capital and earnings, rather than the bank’s
ability to successfully mitigate identified risks. As such, with the benefit of hindsight, we often
concluded in our MLR reports that greater supervisory concern and more timely supervisory action
may have been prudent. Further, in some cases, MLR reports noted that doing so would generally
have served to establish supervisory expectations and prompted Boards and management to
implement corrective actions to address supervisory concerns. Although the supervisory approach
proved effective, we believe that earlier emphasis on risk management practices at the turn-around
banks would have been equally beneficial.

ENFORCEMENT ACTIONS ADDRESSING ASSET QUALITY, CAPITAL, AND MANAGEMENT WERE
IMPOSED AS BANKS’ FINANCIAL CONDITION DETERIORATED – GENERALLY CONSISTENT WITH
THE APPROACH FOR FAILED BANKS

In general, supervisory attention is heightened when banks are in a less-than-satisfactory condition.
Accordingly, the FDIC uses formal and informal enforcement actions to address practices,
conditions, or violations that could result in risk of loss or damage to a financial institution.
Specifically, to assure greater uniformity of action and help assure that supervisory efforts are
directed to banks most in need, the FDIC’s examination policy presumes either a formal or
informal administrative action will be taken on banks with 3, 4, or 5 composite CAMELS ratings
unless specific circumstances argue strongly to the contrary. A composite 3 rating implies that a
bank has weaknesses that, if not corrected, could worsen. Informal actions are generally
appropriate for institutions that receive a composite 3 rating. The FDIC may recommend that the
bank’s Directors adopt a Bank Board Resolution (BBR), which establishes the bank’s commitment
to address specific deficiencies. Alternatively, the FDIC may enter into a Memorandum of
Understanding (MOU) with the institutions.

16
   Section 337.12 of the FDIC’s Rules and Regulations, which implements section 10(d) of the FDI Act, requires
annual full-scope, on-site examinations of every state nonmember bank at least once every 12-month period and allows
for 18-month intervals for certain small institutions (with total assets of less than $500 million) if certain conditions are
satisfied.
17
   If there was no examination report in 2007, we used a 2006 report.


                                                            19
Banks with composite ratings of 4 or 5 will, by definition, have problems of sufficient severity to
warrant formal action. In these cases, the FDIC will typically take formal action pursuant to
section 8 of the FDI Act against all insured state nonmember banks rated 4 or 5, where evidence of
unsafe or unsound practices is present. Exceptions to the policy may be considered when the
condition of the bank clearly reflects significant improvement resulting from an effective
corrective program or where individual circumstances strongly mitigate the appropriateness or
feasibility of this supervisory tool. For example, acceptable action by the state authority might
preempt the need for FDIC action, or qualified new management might allow the use of an MOU
instead of a formal consent order.

We found that each of the 23 turn-around banks was subject to some type of formal and/or
informal action between 2007 and 2010 and, as such, heightened supervisory attention consistent
with the FDIC’s policies. In total, the turn-around banks were subject to a total of 42 FDIC
stipulated (i.e., agreed to) actions. We determined the timeliness of actions was consistent with
broader trends for enforcement actions issued during the period. Specifically, we found as the
economy deteriorated, the number of actions issued per year for all FDIC-supervised banks
dramatically increased, rising to 1,127 actions during 2010. From 2005 through 2010, the FDIC
and/or state regulatory authorities issued (or assumed responsibility for) approximately 3,213
enforcement actions. Figure 12 shows the trend with respect to enforcement actions during this
period, while Figure 13 shows selected categories of actions taken.

Figure 12: Trend Analysis of Enforcement Actions, 2005 to 2010




Source: Division of Risk Management Supervision (RMS) Formal and Informal Action Tracking (FIAT) System.




                                                      20
Figure 13: Selected Categories of Enforcement Actions, 2005 to 2010




Source: RMS FIAT System.
Note:   The figure does not include civil money penalties, orders for removal or investigation, or certain
        other actions. The Other Formal Action category primarily includes state-issued actions that
        the FDIC did not sign.

For the turn-around banks, the 42 FDIC-stipulated enforcement actions included a total of
558 provisions. In general, the actions routinely included provisions that addressed capital, asset
quality, management, earnings, and reserves. For example, a capital provision was included in
90 percent (38 of 42) of the enforcement actions. The capital-related provisions required the bank
to increase and/or maintain capital at a specific targeted ratio. Eighty-eight percent of the actions
also included an asset quality-related provision. These provisions typically required an institution
to charge off non-performing loans, develop a plan for reducing classified assets, and improve loan
underwriting and loan administration. In addition, 98 percent (41 of 42) of enforcement actions
included provisions requiring the banks to assess and improve or obtain qualified management.
Each of the enforcement actions also included a provision requiring the turn-around banks to
submit quarterly progress reports, which are a common tool the FDIC uses to monitor institutions
operating under an enforcement action. The FDIC usually conducted on-site visitations between
full-scope examinations to monitor these institutions’ progress in addressing critical weaknesses.

As reflected in the improved composite ratings, most of the turn-around banks took steps to
substantially comply with supervisory actions and address problem areas, including raising or
securing additional capital, as needed. In most cases, examiners noted management’s substantial
compliance with provisions in the subsequent examination. We noted that in some cases, the
injection of capital was accompanied by a change of management control. These two factors were
likely contributors to improvements noted by examiners, and the additional capital allowed the
existing or new management team the time necessary to implement corrective actions. Although
the condition of banks had improved, most banks remained subject to an enforcement action and
heightened supervisory attention as of April 2011. In some cases, formal orders were removed and
replaced by informal actions.


                                                           21
THE FDIC HAS TAKEN STEPS TO ADDRESS SPECIFIC MLR TRENDS AND ISSUES

In response to MLR findings and other issues, the FDIC has issued specific examiner and financial
institution guidance, as discussed in our 2010 report. Briefly, actions taken included:

      Establishing the importance of implementing a forward-looking approach to examinations
       and reflecting financial institution risks in the assigned CAMELS rating as part of its
       Forward-Looking Training Initiative;

      Recognizing factors that are indicative of elevated risk associated with management, which
       included high-risk appetite and degree of responsiveness to examiner recommendations;

      Issuing additional guidance regarding the inappropriate use of interest reserves;

      Emphasizing to examiners the risks that the use of non-core funding can present to a
       financial institution;

      Issuing guidance regarding the consideration of brokered deposits in the deposit insurance
       risk assessment process, use of such funding sources for institutions that are in a weakened
       condition, processing requests for brokered deposit waivers, and interest rate restrictions for
       banks that are less than Well Capitalized;

      Issuing guidance to emphasize the importance of monitoring institutions subject to
       enforcement actions, including the need to clarify expectations for quarterly progress
       reports, meet with an institution’s Board at the beginning of a corrective program, and
       conduct onsite supervisory activities between examinations; and

      Enhancing off-site monitoring activities for various high-risk issues.

As discussed earlier in this report, the Joint Guidance addresses sound risk management practices
for concentrations in CRE lending (and ADC lending) and reinforces existing regulations for real
estate lending and safety and soundness. As the financial crisis was unfolding, the FDIC issued
additional CRE- and ADC-related guidance during 2008 and 2009 and has implemented a number
of other initiatives to ensure examiners have the tools necessary to assess an institution’s
vulnerability with regard to concentrations.

BANKING OFFICIALS HAD POSITIVE VIEWS OF THE EXAMINATION PROCESS, BUT CONCERNS
EXIST REGARDING EXAMINER REVIEW OF CRE LENDING AND REGULATORY BURDEN

Most bankers characterized the examination process as “good” or “okay” and viewed the
examination process as beneficial. Also, most bankers viewed the Joint Guidance positively,
explaining that the guidance helped to raise their own awareness or reinforced the need for good
credit administration and underwriting practices even if their practices were in line with the
guidance. A few bankers offered a different perspective, commenting that the guidance was issued
too late to be fully effective. Further, a few bankers stated that the guidance has prompted



                                                 22
examiners to be overly critical of concentrations. For example, a few bankers stated that
examiners were treating supervisory thresholds as limits, which is inconsistent with the guidance.

In a related vein, GAO completed a study of examiners’ practices related to CRE lending in May
2011.18 The scope of GAO’s report included institutions with CRE concentrations of 300 percent
or greater and CAMELS ratings of 3, 4, and 5, which provided for a broader range of views than
our study. Based on interviews with officials from the 43 banks in its sample, GAO reported that
banking officials’ overarching concern was that examiners were applying CRE guidance more
stringently than before the financial crisis. Banking officials also informed GAO that:

          Examiners were classifying loans that were technically performing based on a global cash
           flow analysis of the borrower’s ability to repay the loan. Such an analysis would show that
           even though a borrower is currently paying a CRE loan, the borrower’s income and other
           debt obligations, when reviewed as a whole, raised questions about whether the borrower
           could continue paying the CRE loan in the future.

          Examiners were being more critical of recent appraisals. For example, according to some
           of the officials GAO interviewed, examiners have been requiring appraisals on CRE
           collateral more often, criticizing the banks’ appraisal review process, and criticizing the
           appraisals themselves.

          Examiners were misapplying the 2006 Joint Guidance and viewing the 300 percent CRE
           concentration threshold as a lending limit, even though the Joint Guidance states that the
           CRE and ADC concentration levels are thresholds that may warrant greater supervisory
           scrutiny.

          Examiners were critically assessing the management component rating and basing the
           rating on asset quality and other component ratings as well as portfolio deterioration due to
           the broader economic downturn, which was out of the bankers’ control.

GAO noted that a few bankers they interviewed considered that the additional scrutiny was
appropriate given the current CRE market situation and the severity of the economic downturn.
GAO recommended that the federal banking regulators enhance or supplement the Joint Guidance
to ensure the guidance was consistently applied.

In January 2012, the Congress passed, and the President signed, legislation requiring our office to
study, among other things, examiner implementation of appraisal and CRE loan workout guidance.
We will be providing a written report to the Congress no later than January 2013 that will address
the views of the bankers discussed above.

Finally, while not related to supervision of ADC concentrations, most bankers that we interviewed
expressed concerns about the level of regulatory burden associated with the Dodd-Frank Act,
particularly newly established compliance-related regulations for smaller banks. Because this issue
was raised by most of the bankers we interviewed, we followed up and noted that many of the
issues have been discussed as part of the FDIC Advisory Committee on Community Banking,
18
     Banking Regulation: Enhanced Guidance on Commercial Real Estate Risks Needed, GAO-11-489, May 2011.


                                                      23
which provides the FDIC with advice and guidance on a broad range of important policy issues
impacting small community banks throughout the country. Advisory committee minutes noted that
FDIC officials have acknowledged the burdens that new regulations impose on community banks
and have observed that every new regulation imposes an incremental cost to community banks that
is higher than the cost to large banks. The minutes also reflect that FDIC officials were sensitive to
the fact that the new regulations address issues that arose with large banks and that the FDIC needs
to avoid unintended trickle-down effects on community banks. Further, FDIC officials recognized
that even though many of the new rules do not impact community banks, significant effort is often
required to sort through the many publications in order for banks to make that determination.


OBSERVATIONS AND MATTERS FOR CONSIDERATION

Prior to the recent financial crisis, competition among financial institutions for growth,
profitability, and community influence often resulted in the compromise of sound credit principles
and acquisition of unsound loans. Ultimately, that type of compromise resulted in a spate of bank
failures not seen since the 1980s—a period that, in broad terms, was not that long ago. Much was
written following the banking crisis of the 1980s and early 1990s, and there were ample
discussions of lessons learned. In addition, far-reaching legislative and regulatory actions were
taken and extensive guidance was issued by regulators on key risks, including repeated warnings
and references to best practices related to ADC lending because it is a highly specialized field with
inherent risks that must be managed and controlled. Nevertheless, unlike the circumstances at the
banks we studied, Boards and management at too many other institutions pursued profits through
growth and higher earning, risky assets, in an era of easy credit, while lacking robust risk
management practices—a story that appears very similar to the one told just over 20 years ago.

We found some institutions with ADC concentrations were able to weather the recent financial
crisis without experiencing a corresponding decline in their overall financial condition. The factors
that contributed to their survival validate the point that regulators have emphasized and reiterated
for years – a well-informed and active Board, strong management, sound credit administration and
underwriting practices, and adequate capital are important to managing ADC concentrations in a
safe and sound manner. In addition, the banks in our study did not rely on brokered deposits to
fund growth, and geographic location factored into the degree of ADC loan losses. Ultimately, the
strategic decisions and disciplined, values-based practices and actions taken by the Boards and
management helped to mitigate and control the institutions’ overall ADC loan risk exposure and
allowed them to react to a changing economic environment. Unlike many failed banks that saw
their capital evaporate rapidly because of the losses associated with their ADC portfolios, the
banks in our study experienced comparatively fewer losses and were able to maintain stable capital
positions.

Further, we determined that the FDIC’s supervisory approach and level of supervisory attention for
the turn-around banks were generally consistent with the FDIC’s supervisory practices and policies
and similar to that of failed banks. In that regard, the following areas in which the FDIC has
implemented revised supervisory policies and procedures are worth highlighting.




                                                 24
      While the supervisory approach we observed for turn-around banks proved effective,
       similar to observations made in our MLRs, we believe that earlier emphasis on risk
       management practices would have been beneficial. To that end, the Corporation completed
       a training initiative in 2010 for its entire supervisory workforce that focused on placing
       greater emphasis on risk management practices for institutions with elevated risk profiles.
       The training addressed the importance of considering management practices as well as
       current financial performance or trends when assigning ratings, consistent with existing
       examination guidance. This approach encourages bank management to continuously
       implement effective risk management practices and examiners to promptly address control
       weaknesses, regardless of how well a bank is performing financially.

      Management’s responsiveness to supervisory concerns was a key differentiating factor
       between banks that failed and turn-around banks that we reviewed. Generally, our MLRs
       have shown that examiners identified significant risks but did not take timely and effective
       action to address those risks until the bank had started to experience significant financial
       deterioration in the loan or investment portfolios. In response to those findings, the FDIC
       has conducted training and issued guidance aimed at timely communication of risks to
       financial institutions, prompt supervisory and enforcement actions, and examiner follow-
       up. The Corporation should remain vigilant in ensuring that its processes and examiners
       sufficiently promote prompt and effective responses to examination findings and
       supervisory actions, including timely and progressive enforcement of situations involving
       banks that are not responsive to examination findings, repeat criticisms, or violations.

Finally, the FDIC has to date, and must continue to make certain, that lessons learned associated
with ADC concentrations become ingrained in day-to-day supervisory activities and greater
emphasis on risk management practices for institutions with elevated risk profiles is sustained
regardless of the health of the economy or banking industry or the political appetite for financial
regulation. We trust that the analysis and conclusions of our study will benefit the Corporation and
assist in management’s continual efforts to have an efficient and effective supervisory program that
protects depositors and the DIF.


CORPORATION RESPONSE
We provided a draft of this report to RMS on August 9, 2012. The FDIC was not required to
provide a written response because the report contained no recommendations, and management
opted to only provide informal comments regarding the technical accuracy of certain report
content. We made changes to the report, where appropriate, to address those comments. RMS did
express general agreement with the evaluation results at the exit conference for this assignment.




                                                25
                                                                                                      Appendix 1

                                 Objective, Scope, and Methodology


Objective and Scope

The objective of this evaluation was to study the characteristics and supervisory approaches for
FDIC-supervised institutions that had significant ADC loan concentrations in December 2007 and
were not considered to be problem banks as of April 2011.

We performed our evaluation work from July 2011 through February 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
and Evaluation.

Methodology

To identify the population of banks relevant to our study, we stratified data associated with the
4,535 FDIC-supervised banks, using the ratio of ADC loans to total capital as of December 2007
and the composite CAMELS rating as of April 8, 2011. The ratio of ADC and CRE loans to
capital provides the basis of supervisory thresholds that were established in the Joint Guidance.
Table 2 provides a stratification of FDIC-supervised banks by ADC loan concentration levels and
condition, as defined earlier in the report by their CAMELS rating.

Table 2: Stratification of FDIC-Supervised Banks by ADC Loan Concentration
                                                                            Less-Than-
                                    No             Satisfactory             Satisfactory
ADC Loans to Total Capital          Rating*         Condition                Condition            Total

100% percent or greater                                          436                     738        1,174

Less than 100%                              5                  2,627                     729        3,361

Total                                       5                  3,063                   1,467        4,535
Source: OIG analysis based on data available through RMS’s Virtual Supervisory Information on the Net (ViSION).
*A rating was not assigned to these institutions at the analysis based on data available through RMS’s ViSION.

We focused our analysis on the following:

       Institutions with 100 percent or greater ADC concentrations and in satisfactory condition.
        We identified 436 institutions meeting our criteria. We focused particular attention on a
        sample of 18 institutions in this group that had ADC concentrations of 300 percent or
        greater.

       Institutions meeting our turn-around criteria. That is, institutions with concentrations
        between 100 percent and 300 percent that were in less-than-satisfactory condition during
        our scope period and received a higher composite rating as of April 2011. We identified 71
        institutions meeting our criteria and selected a non-statistical sample of 23 banks to study
        the FDIC’s supervisory approach.

None of the sampling techniques that we used can be used to project to the intended population by
standard statistical methods.


                                                        26
                                                                                         Appendix 1

                             Objective, Scope, and Methodology


We took a three-pronged approach to perform this study:

Discussions with bank officials. We contacted bank officials from 38 institutions, comprised of
(1) 28 of the 436 institutions, including officials from the 18 banks in our sample and (2) 10
randomly selected banks from our pool of turn-around banks. Thirty-six officials agreed to talk
with us.

Using structured interviewed questions, we asked the bankers to:

      Describe their respective lending and growth strategies and how they were able to mitigate
       the risk associated with the ADC loan concentrations;

      The extent to which local market conditions or geographic location impacted the bank’s
       financial performance during the financial crisis;

      Characterize their loan underwriting and credit administration practices as liberal,
       moderate, or conservative;

      Describe their ability to raise capital; and

      Identify any lessons learned.

We also solicited their views on the FDIC’s supervision as related to CRE and ADC
concentrations.

Throughout the report, when we summarize statements about the 36 banks for which we
interviewed associated officials, we use the term “few” to refer to 1-9 of 36 bankers making the
statement, “some” to refer to 10-24 of 36 bankers making the statement; and “most” to refer to 25-
36 bankers making the statement. We do not provide specific numbers in the body of the report to
avoid overstating the precision of the results.

Analysis and comparison of financial and other data. Using data from UBPRs, we performed
level and trend analysis that compared and contrasted the key financial performance ratios for
banks in our population with the 214 FDIC-supervised institutions that failed between January
2007 and April 2011. The UBPR is produced quarterly from Call Report data submitted by banks.

We also obtained loan survey results from DIR and RMS in order to compare and contrast the loan
survey results using the FDIC’s survey results from January 2007 to December 2010. We used
data from the Underwriting Survey Questionnaire and the Credit and Consumer Products/Services
Survey. The Credit and Consumer Products/Services Survey replaced the Underwriting Survey
Questionnaire in 2009 to strengthen the identification and tracking of risks facing insured
institutions. These surveys are completed by examiners at FDIC-supervised banks.

Evaluation of the FDIC’s supervisory strategy. To study the FDIC’s supervisory approach we
reviewed supervisory information available for our sample of 23 turn-around banks. For each


                                                  27
                                                                                           Appendix 1

                             Objective, Scope, and Methodology


bank, we obtained and reviewed key supervisory documents from 2007 through 2011, including
completed reports of examination, problem bank memoranda, and information from the FDIC’s
ViSION system, including summary-related information and information about enforcement
actions taken.

Our basic understanding of risks associated with CRE/ADC concentrations is based on our review
of FDIC policies, regulatory guidance, and various CRE/ADC-related reports from the GAO and
the FDIC as noted throughout the report.

We also reviewed MLR reports issued by our office from January 2007 through March 2011 and
other studies written on the causes of the bank failures during the recent financial crisis to provide
a general context for the role CRE/ADC concentrations played in the failures.




                                                  28
                                                                                                 Appendix 2

                                               Glossary


Acquisition,       ADC loans are a component of CRE that provide funding for acquiring and
Development,       developing land for future construction and that provide interim financing
and Construction   for residential or commercial structures.
(ADC) Loans

Allowance for      The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and Lease     book value of loans and leases to the amount that is expected to be
Losses (ALLL)      collected. It is established in recognition that some loans in the institution’s
                   overall loan and lease portfolio will not be repaid. Boards of Directors are
                   responsible for ensuring that their institutions have controls in place to
                   consistently determine the allowance in accordance with the institutions’
                   stated policies and procedures, generally accepted accounting principles,
                   and supervisory guidance.

Bank Board         A BBR is an informal commitment adopted by a financial institution’s
Resolution (BBR)   Board of Directors (often at the request of the FDIC) directing the
                   institution’s personnel to take corrective action regarding specific noted
                   deficiencies. A BBR may also be used as a tool to strengthen and monitor
                   the institution’s progress with regard to a particular component rating or
                   activity.

Call Report        Reports of Condition and Income, often referred to as Call Reports, include
                   basic financial data for insured commercial banks in the form of a balance
                   sheet, an income statement, and supporting schedules. According to the
                   Federal Financial Institutions Examination Council’s (FFIEC) instructions
                   for preparing Call Reports, national banks, state member banks, and insured
                   nonmember banks are required to submit a Call Report to the FFIEC’s
                   Central Data Repository (an Internet-based system used for data collection)
                   as of the close of business on the last day of each calendar quarter.

Commercial Real    CRE loans are land development and construction loans (including 1-4
Estate (CRE)       family residential and commercial construction loans) and other land loans.
Loans              CRE loans also include loans secured by multifamily property and nonfarm
                   nonresidential property, where the primary source of repayment is derived
                   from rental income associated with the property or the proceeds of the sale,
                   refinancing, or permanent financing of the property.

Concentration      A concentration is a significantly large volume of economically related
                   assets that an institution has advanced or committed to a certain industry,
                   person, entity, or affiliated group. These assets may, in the aggregate,
                   present a substantial risk to the safety and soundness of the institution.

Consent Order      A formal enforcement action issued by a financial institution regulator to a
                   bank or affiliated party to stop an unsafe or unsound practice or a violation
                   of laws and regulations. A consent order may be terminated when the
                   bank’s condition has significantly improved and the action is no longer
                   needed or the bank has materially complied with its terms.



                                                   29
                                                                                                Appendix 2

                                              Glossary




De novo bank       A de novo bank is a newly established bank that is in its first 7 years of
                   operation. De novo banks are subject to additional supervisory oversight
                   and regulatory controls, including the development and maintenance of a
                   current business plan and increased examination frequency.

FDIC’s             The FDIC’s supervision program promotes the safety and soundness of
Supervision        FDIC-supervised institutions, protects consumers’ rights, and promotes
Program            community investment initiatives by FDIC-supervised institutions. The
                   FDIC’s RMS (1) performs examinations of FDIC-supervised institutions to
                   assess their overall financial condition, management policies and practices
                   (including internal control systems), and compliance with applicable laws
                   and regulations and (2) issues related guidance to institutions and
                   examiners.

Global Cash Flow   A global cash flow analysis is a comprehensive evaluation of borrower
Analysis           capacity to perform on a loan. During underwriting, proper global cash
                   flow must thoroughly analyze projected cash flow and guarantor support.
                   Beyond the individual loan, global cash flow must consider all other
                   relevant factors, including: guarantor’s related debt at other financial
                   institutions, future economic conditions, as well as obtaining current and
                   complete operating statements of all related entities. In addition, global
                   cash flow analysis should be routinely conducted as a part of credit
                   administration. The extent and frequency of global cash flow analysis
                   should be commensurate to the amount of risk associated with the particular
                   loan.

Interest Reserve   An interest reserve account allows a lender to periodically advance loan
Account            funds to pay interest charges on the outstanding balance of the loan. The
                   interest is capitalized and added to the loan balance. Frequently, ADC loan
                   budgets will include an interest reserve to carry the project from origination
                   to completion and may cover the project’s anticipated sellout or lease-up
                   period.

Loan               The transfer of an undivided interest in all or part of the principal amount of
Participation      a loan from a seller, known as the “lead,” to a buyer, known as the
                   “participant,” without recourse to the lead, pursuant to an agreement
                   between the lead and the participant. “Without recourse” means that the
                   loan participation is not subject to any agreement that requires the lead to
                   repurchase the participant’s interest or to otherwise compensate the
                   participant upon the borrower’s default on the underlying loan.




                                                   30
                                                                                                 Appendix 2

                                                Glossary


Material Loss       As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it
                    exceeds the greater of $25 million or 2 percent of an institution’s total assets
                    at the time the FDIC was appointed as the receiver. The Dodd-Frank Wall
                    Street Reform and Consumer Protection Act amended section 38(k) of the
                    FDI Act in part by increasing the MLR threshold from $25 million to $200
                    million for losses that occur for the period January 1, 2010 through
                    December 31, 2011, and to $150 million for failures occurring during 2012
                    and 2013.

Memorandum of       An MOU is an informal agreement between the institution and the FDIC,
Understanding       which is signed by both parties. The State Authority may also be party to
(MOU)               the agreement. MOUs are designed to address and correct identified
                    weaknesses in an institution’s condition.

Offsite Review      The FDIC’s offsite review program is designed to identify emerging
Program             supervisory concerns and potential problems so that supervisory strategies
                    can be adjusted appropriately. Offsite reviews are performed quarterly for
                    each bank that appears on the Offsite Review List. Regional management is
                    responsible for implementing procedures to ensure that offsite review
                    findings are factored into examination schedules and other supervisory
                    activities.

Problem Bank        A problem bank memorandum documents the FDIC’s concerns with an
Memorandum          institution and the corrective action in place or to be implemented and is
                    used to effect interim rating changes on the FDIC’s systems.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325, subpart
(PCA)               B, of the FDIC Rules and Regulations, 12 Code of Federal Regulations,
                    section 325.101, et, seq., implements section 38, Prompt Corrective Action,
                    of the FDI Act, 12 United States Code section 1831(o), by establishing a
                    framework for determining capital adequacy and taking supervisory actions
                    against depository institutions that are in an unsafe or unsound condition.
                    The following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

Provision           Specific corrective measures an institution or individual respondent is
                    required to take under a corrective action.
Risk-Based          A “supplemental” capital standard under Part 325 of the FDIC Rules and
Capital             Regulations. Under the risk-based framework, a bank’s qualifying total
                    capital base consists of two types of capital elements, “core capital” (Tier 1)
                    and “supplementary capital” (Tier 2).




                                                    31
                                                                                              Appendix 2

                                            Glossary


Tier 1 (Core)    Defined in Part 325 of the FDIC Rules and Regulations, 12 Code of Federal
Capital          Regulations, section 325.2(v), as:
                 The sum of:
                 • Common stockholder’s equity (common stock and related surplus,
                 undivided profits, disclosed capital reserves, foreign currency translation
                 adjustments, less net unrealized losses on available-for-sale securities with
                 readily determinable market values);
                 • Non-cumulative perpetual preferred stock; and
                 • Minority interest in consolidated subsidiaries;
                 Minus:
                 • Certain intangible assets;
                 • Identified losses;
                 • Investments in securities subsidiaries subject to section 337.4; and
                 • Deferred tax assets in excess of the limit set forth in section 325.5(g).

Tier 2           Tier 2 capital is defined in Appendix A to Part 325 of the FDIC Rules and
(Supplemental)   Regulations and is generally the sum of:
Capital
                 • Allowances for loan and lease losses, up to a maximum of 1.25 percent of
                 risk-weighted assets;
                 • Cumulative perpetual preferred stock, long-term preferred stock. and
                 related surplus;
                 • Perpetual preferred stock (dividend is reset periodically);
                 • Hybrid capital instruments; and
                 • Term subordinated debt and intermediate-term preferred stock.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)    The report is produced by the FFIEC for the use of banking supervisors,
                 bankers, and the general public and is produced quarterly from Call Report
                 data submitted by banks.

Uniform          Financial institution regulators and examiners use the UFIRS to evaluate a
Financial        bank’s performance in six components represented by the CAMELS
Institutions     acronym: Capital adequacy, Asset quality, Management practices,
Rating System    Earnings performance, Liquidity position, and Sensitivity to market risk.
(UFIRS)          Each component, and an overall composite score, is assigned a rating of 1
                 through 5, with 1 having the least regulatory concern and 5 having the
                 greatest concern.

Wholesale        Wholesale funding sources include, but are not limited to, federal funds,
Funding          public funds, Federal Home Loan Bank advances, the Federal Reserve’s
                 primary credit program, foreign deposits, brokered deposits, and deposits
                 obtained through the Internet or certificate of deposit listing services.
                 Financial institutions may use wholesale funding sources as an alternative
                 to core deposits to satisfy funding and liability management needs.




                                                32
                                                                             Appendix 3

                                        Acronyms


ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

BBR      Bank Board Resolution

CAMELS   Capital Adequacy, Asset Quality, Management Practices, Earnings Performance,
         Liquidity Position, and Sensitivity to Market Risk

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DIR      Division of Insurance and Research

FDI      Federal Deposit Insurance

FFIEC    Federal Financial Institutions Examination Council

FIAT     Formal and Informal Action Tracking

FIL      Financial Institution Letter

GAO      Government Accountability Office

MLR      Material Loss Review

MOU      Memorandum of Understanding

OIG      Office of Inspector General

PCA      Prompt Corrective Action

RMS      Division of Risk Management Supervision

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System

ViSION   Virtual Supervisory Information on the Net




                                           33
